No. 20-18
_____________
IN THE SUPREME COURT OF THE UNITED STATES

Arthur Gregory Lange,

Petitioner,
v.
California,

Respondent.

On Writ of Certiorari
to the Court of Appeal of California,
First Appellate District

MOTION FOR LEAVE TO DISPENSE
WITH PREPARATION OF A JOINT APPENDIX

Pursuant to Rule 26.8 of the Rules of this Court, petitioner Arthur Lange
respectfully moves for leave to dispense with the requirement of a joint appendix in
this case. The respondent and the Court-appointed amicus curiae agree that a joint
appendix is not necessary.
This case presents the question whether pursuit of a person who a police officer
has probable cause to believe has committed a misdemeanor, without more,
categorically qualifies as an exigent circumstance sufficient to allow the officer to
enter a home without a warrant. The opinions of the lower courts are included in the

1

appendix to the petition for a writ of certiorari. In our view, no other portion of the
record merits special attention such as would warrant the preparation and expense
of a joint appendix, and a joint appendix would not materially assist the Court in its
consideration of the case.

Dated: November 5, 2020

Respectfully submitted,

Brian H. Fletcher

Counsel of Record
STANFORD LAW SCHOOL
SUPREME COURT
LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-3345
bfletcher@law.stanford.edu

2

